could exist in other BIA regional or agency offices and could affect the road maintenance
program.

        In undertaking our current preliminary review, we met with the BIA Division of
Transportation (Division) and budget officials to discuss the road maintenance project selection
process and the anticipated program administration processes. Additionally, we visited two
regional Division offices. We also reviewed several documents, including a March 27, 2009,
and a May 9, 2009, list of proposed Recovery Act road maintenance projects; tribal single audits
for fiscal years 2006 and 2007; Indian Affairs’ (IA) draft risk mitigation plan; and the Office of
Acquisition and Property Management’s draft decision paper regarding compliance with the
Single Audit Act. We provided the Department with a draft of our observations, to which IA and
BIA officials responded. We capture in this advisory the information provided in their response.

Project Selection

        To help guide the bureau’s preparation of lists of project to fund with Recovery Act
appropriations, the Department issued a document titled “Economic Recovery Template and
Guidance for Project Lists.” This document included general guidance and an excel spreadsheet
template in which to list projects and several data elements—outlined in the guidance—for each
project.2 On the BIA project list (dated May 9, 2009), BIA officials have proposed using
Recovery Act funding for 541 road and bridge maintenance projects with an estimated cost of
$142.5 million. BIA officials told us that they selected projects from the historical deferred
maintenance list to provide a fair distribution of funds to tribes in all geographic regions.

        Based on a March 27, 2009, road project list that we initially received, we identified 42
projects with a budget of $1,000 or less. We expressed concern that these projects were too
small to administer effectively and that the transaction costs for these small projects could
exceed the value of the projects. We also observed that funding larger projects could have a
greater economic impact. A Division official stated that the smaller projects were components of
larger projects, but that they were separated from the larger project to comply with guidance on
compiling the project lists. The guidance directed the bureaus to identify projects by
congressional districts and states. The more current May 9, 2009, project listing consolidated
many of the smaller projects with the respective larger projects, effectively reducing the list of
projects with a value of $1,000 or less to nine, which are valued at $4,520. The revised project
list addresses our original concerns.

        During field visits to the regions, however, both regional Division engineers with whom
we met expressed concern that the road maintenance projects selected may not address the most
urgent local needs. Their assessment of local needs was based on conditions and volume of use
on the roads and bridges. Further, they expressed concern that estimated budgets may be
insufficient to accomplish project tasks because the estimates were based on data that was
current in the 4th quarter of 2008. Supplies and other costs, according to the engineers, have

2
  Data elements include, among others, fiscal year in which deferred maintenance or line item constructions projects
are planned for funding in the bureau five year plans; state; project elements (including health and safety, energy
efficiency/green buildings, use of renewable energy sources, youth/community service, national icons, and treasured
landscapes); proposed procurement instrument; National Environmental Policy Act (NEPA) compliance completed;
permitting and consultation completed.
                                                                                                                  2
increased since then. The Division engineers were not directly involved in the project selection
for Recovery Act funding. A Division headquarters official stated that the headquarters staff
involved in selecting projects for Recovery Act funding considered existing road conditions as
well as an average daily usage factor.

       While the official from Division headquarters acknowledged that situations could arise
where funding might be better allocated to different projects, he stressed that regional engineers
must consult with headquarters before using funds for other projects. The need to consult with
headquarters would also apply if funding needed to be reallocated into or out of a project on the
approved project list.

        The concerns over the project lists and processes for developing and changing them
indicate that communications could be improved. The need for two-way communication
between Division headquarters and the regions cannot be overemphasized. The Federal
Acquisition Regulation (FAR) emphasizes the importance of team effort in a successful
acquisitions process, with reference to “teamwork unity of purpose” and “open communication”
amongst those organizational components that have a stake in the successful completion of the
procurement process.3 In addition, our recent advisory on past Departmental weaknesses
reported the need for effective communications and teaming.4

        Another component to effective planning is ensuring all preliminary processes, such as
environmental reviews required under the National Environmental Policy Act (NEPA), are
completed. We observed that many project data fields required by the Department in its
guidance, including some related to preliminary reviews and work, are incomplete. For example,
projects were not assigned priorities and several data fields, including “Contracts,” “NEPA
Compliance,” and “Permitting,” contained the same answer for all projects. These answers were
inconsistent with what Division officials stated. These observations remain true for the May 9,
2009, revised project list. It is important not only for effective planning, but also to ensure
transparency and compliance, that projects be described accurately in accordance with applicable
guidance.

Program Administration and Risk Management

        Equally as important as effective planning during the project selection and early
implementation phase is effective program administration and risk management. BIA must take
positive action to ensure the competence and capability of its regional and agency offices to
administer Recovery Act funds allocated to road maintenance projects. It must also ensure it has
plans to identify and mitigate risks. Such oversight and risk management are required by Section
2.7 of OMB’s “Updated Implementing Guidance for the American Recovery and Reinvestment
Act of 2009” (M-09-15, April 3, 2009), which states “Agencies must describe processes in place
for senior managers to regularly review the progress and performance of major programs,
including identifying areas of risk and completing corrective actions.” Section 2.8(j) of the



3
 FAR, 48 C.F.R. Chapter 1, Part 1.102-3 Acquisition team
4
 Addressing Past Areas of Vulnerability in Department of the Interior Programs. (June 1, 2009). ROO-ROA-
MOA-1006-2009.
                                                                                                           3
Guidance also requires that managers be held accountable for achieving Recovery Act program
goals.

        BIA has taken a positive step in this regard by holding a conference of regional
transportation officials in April 2009 to review issues related to the Recovery Act. Additionally,
a headquarters official at the Division stated that they anticipate releasing a Recovery Act
handbook in June 2009 for regional officials. The development of a Recovery Act handbook,
which will include sections on program planning, contract administration, and risk mitigation,
can help to ensure consistent project administration at the regional level and provide stronger
project transparency and accountability. BIA must also ensure that it has adequate insight at
both the field and national level over project performance on the ground to ensure project dollars
are spent as intended.

        BIA has also taken a positive step to identify and mitigate potential risks with Recovery
Act funds by considering the results of “single audits.” Entities that expend $500,000 or more a
year in financial assistance are required to undergo annual reviews known as single audits.
These audits help to provide assurance that the federal funds were used appropriately and
identify internal control weaknesses in a tribe’s transaction cycles. Accordingly, single audit
findings can help in assessing the risk that a tribe would improperly use Recovery Act funds and
the degree of oversight needed at the regional level during project implementation. Additionally,
tribes that did not obtain a required single audit could be considered a higher risk. During fiscal
years 2006 and 2007, 98 and 74 tribes, respectively, had single audits with reported material
weaknesses with federal program funds.

         During our meetings with BIA on road maintenance projects, Division officials stated
that BIA will give respective tribes the right of first refusal for projects funded under the
Recovery Act. Tribes that had not had single audits performed or that had deficiencies identified
in their single audits will not be automatically excluded from receiving funds, but will be
considered on a case by case basis. We expressed in our draft advisory a concern that if BIA
were to contract with such entities, adequate oversight mechanisms must be in place to address
the increased risk of fraud, waste, and resulting lack of accountability.

        After we issued our draft advisory, IA informed us that they reviewed each tribe’s single
audit report and, based on the findings identified, assigned an overall risk score of “High”,
“Medium”, or “Low”. IA has developed a draft risk mitigation plan that incorporates the scores
into monitoring levels for the respective tribes. The draft plan prescribes that tribes participating
in Recovery Act programs that received a score of “High” should be monitored monthly. Tribes
with “Medium” and “Low” scores should be monitored quarterly and semi-annually,
respectively. This oversight requirement applies to each of the respective Recovery Act
programs at BIA. Relating the risk level to specific oversight requirements in this way can help
to provide uniformity throughout the regions and the programs. It can also help to ensure a
higher level of accountability where tribes with a poor record of single audit findings have been
contracted to perform the project work. We encourage BIA to ensure the risk management
strategy works in practice as Recovery Act projects move toward implementation, and to capture
lessons for activities conducted under regular appropriations if risk is in fact mitigated.



                                                                                                    4
Equipment Purchases

         As mentioned above, BIA offers tribes a right of first refusal to perform road
maintenance projects. If a tribe declines, BIA must perform the road maintenance project
through the respective Division regional office. If this happens, regional road engineers
anticipate they may need to purchase heavy equipment such as trucks and graders. Regional
officials expressed concern that there were no procedures in place for obtaining headquarters
approval for purchasing equipment with Recovery Act funds. Delays in getting approval could
result in delays in equipment delivery, and subsequent delays in completion of the projects, since
manufacturers may be backlogged with orders from other agencies, states, and local communities
receiving Recovery Act road maintenance and construction funding.

        A Division official mentioned that the Recovery Act handbook to be issued in June 2009
will include the process for submitting equipment requests. Included in the process will be the
region’s responsibility to fully justify the equipment, taking into consideration such factors as:
equipment utilization beyond the Recovery Act, potential useful life, annual maintenance costs,
and regional capacity to perform maintenance. We also encourage the Division to require that,
during the justification process, consideration be given to leasing equipment, as it may provide a
more timely solution to enable project completion. The FAR provides that leasing may “serve as
an interim measure when the circumstances require immediate use of equipment to meet
program or system goals.”5 Such consideration would have to be done in accordance with the
prescribed process.

       We do not require an official response to this advisory, but we will post it on our website
(www.doioig.gov) and Recovery.gov. Information contained in this advisory may also be
included in our semi-annual reports to Congress. Please feel free to contact me if you have any
questions.


cc: 	      Acting Assistant Secretary – Policy, Management and Budget
           Assistant Secretary, Indian Affairs
           Director, Office of Acquisition and Property Management
           Director, Office of Financial Management
           Departmental GAO/OIG Audit Liaison
           Audit Liaison, Office of the Secretary
           Audit Liaison, Indian Affairs




5
    FAR, Part 7.402 Acquisition methods
                                                                                                 5
  Report Fraud, Waste, Abuse,


     and Mismanagement


          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
           wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
             allegations to us in several ways.




By Mail: 	        U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 4428 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone:		       24-Hour Toll Free            800- 424-5081
                  Washington Metro Area        703- 487-5435

By Fax:		         703-487-5402

By Internet:		    www.doioig.gov/hotline
